U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 30, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Devan Pierson v. United States, No. 20-401
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 22,
2020. The government’s response is now due, after two extensions, on December 9, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 8, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0401
PIERSON, DEVAN
USA

ERIN E. MURPHY
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
ERIN.MURPHY@KIRKLAND.COM

